                                                                                                         UM 


   Case Number: AI0030022                                                                                       Pagel of 1



                  NSF OIG identified a small amount of plagiarism in a pI'sl Pf()PCISa12 and sontacted the
           PI. Based on the PI's response, we detennined that some of the           plagiarism occurred
           within sections describing technical experimental methods, which       I language-constrained.

           We sent the PI a letter reminding her of her responsibility to           cite all material in her
           NSF proposals.                                                         i

                  This case is ~ and no further action will be taken.


                                                                                                    1/
                                                                                                II
                                                                                                i
                                                                                               ,I
                                                                                               .i
                                                                                                I.
                                                                                           ,r
                                                                                           ,I
                                                                                          Ii
                                                                                          iJ
                                                                                          'f




                                                                                     "
                                                                                     II
                                                                                     l
                                                                                    1/
                                                                                Ii
                                                                                :1
                                                                               II
                                                                               }
                                                                               Ii




NSF OIG Fonn
